October 28, 2019
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington D.C. 20543
Re: Our Lady of Guadalupe School v. Agnes Morrissey-Berru, No. 19-267
Dear Mr. Harris:
I represent the Petitioner in the above-captioned case. The petition for a writ of
certiorari was docketed on August 29, 2019, and the response was filed today, October
28, 2019. By this letter, Petitioners waive the 14-day waiting period for a reply brief
under Rule 15.5 and ask that the petition, response, and amicus briefs be distributed
on the next scheduled distribution date—October 30—for consideration at the
November 15 conference.
Respectfully submitted,

Eric Rassbach
Counsel of Record for Petitioner
cc:

Jennifer Lipski
Counsel of Record for Respondent
JML Law, A.P.L.C.
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

